Fagfes: 3
Hied: vjizjrzuzv
Document: bb
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

3: 19-1329

•llnttefr js&ttes Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted October 23, 2020*
Decided October 23, 2020
Before
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 19-1829
GREGORY JONES,
Plaintiff-Appellant,
v.
ANDREW TILDEN and RILIWAN
OJELADE,
Defendants-Appellees.

Appeal from the United States District
Court for the Central District of Illinois.
No. 17-cv-1248
Joe Billy McDade,
Judge.

ORDER
Based on his own deposition testimony, Gregory Jones, an Illinois prisoner at the
Pontiac Correctional Center, lost at summary judgment on his claim that a physician's
assistant was deliberately indifferent to his medical needs. In his complaint, Jones had
accused the assistant of failing to issue him a bottom-bunk permit after he had fallen
from his upper bunk. But the district court observed that his accusation could not be
*
This appeal is successive to appeal no. 18-1286 and is decided under Operating
Procedure 6(b) by the same panel. We have agreed to decide this case without oral
argument because the briefs and record adequately present the facts and legal
arguments, and oral argument would not significantly aid the court. FED. R. APP. P.
34(a)(2)(C).

Case: 19-1829

No. 19-1829

Document: 66

Filed: 10/23/2020

Pages: 3

Page 2

true because Jones had testified that he first fell from his upper bunk after he saw the
assistant. Jones now argues that his prison grievance contradicts his deposition
testimony and warrants a trial on his claim. Because the grievance is unsworn and in it
Jones does not state that he told the assistant about his falls, we affirm.
Jones saw Riliwan Ojelade, a physician's assistant, twice regarding pain. He first
saw him in March 2016 concerning shoulder pain, a common complaint among inmates
like Jones who lift weights. Ojelade's physical exam of Jones showed that he had full
range of motion in his shoulder. Still, Ojelade prescribed naproxen for Jones's pain. At
his second visit, in June 2016, Jones wanted another pain reliever to treat his knee and
lower-back pain. (Jones had injured his back two years earlier.) Jones asserts (and
Ojelade denies) that he also requested a lower-bunk permit. Ojelade examined Jones
and found no abnormalities or injuries: Jones's spine was aligned, he had no atrophy or
muscle weakness, he had normal range of motion, his muscles were symmetrical, and
his knees had no joint deformity, redness, or swelling. Ojelade advised Jones that his
back pain would likely get worse as he ages (he was 57) and prescribed Motrin for the
pain. (In his reply brief on appeal, Jones asserts that Ojelade did not examine him at this
visit, but he omitted the argument in his opening brief, so it is waived. See Carroll v.
Lynch, 698 F.3d 561, 568 (7th Cir. 2012). In any event, the argument contradicts Jones's
own statement of the facts where he recounts Ojelade's exam of his back and knees.)
After filing a grievance against Ojelade for not issuing him a lower-bunk permit,
Jones sued Ojelade under 42 U.S.C. § 1983, and Ojelade moved for summary judgment.
(Jones also sued Dr. Andrew Tilden, but he develops no argument for reviving this
claim, so we do not consider it. See Shipley v. Chicago Bd. of Election Comm'rs, 947 F.3d
1056,1063 (7th Cir. 2020).) Ojelade argued that at the June exam he saw no substantial
risk of harm to Jones from the upper bunk. First, his exam of Jones and Jones's
muscularity showed no need for a lower-bunk permit. Second, Jones never said that he
had fallen from his upper bunk. As proof, Ojelade cited Jones's deposition testimony
where Jones swore (consistent with his complaint) that "the first time [he] fell was
September of '16," months after the exam. Without citing any evidence, Jones replied
that Ojelade knew at the June exam that he had fallen from his upper bunk.
The district court entered summary judgment for Ojelade. It ruled that Jones did
not support his assertion that Ojelade knew at the June exam about falls from his upper
bunk, so Ojelade had no reason to issue him a lower-bunk permit. Indeed, the court
stated, Jones's testimony—that he first fell from his bunk months after that examrefuted his claim. The court noted that Jones had attached to his complaint his grievance

Case: 19-1829

Document: 66

Filed: 10/23/2020

Pages: 3

No. 19-1829

Page 3

about Ojelade but concluded that it did not warrant a trial. In it, Jones asserted that he
saw Ojelade for back pain in June, after he fell from his bunk. But the only statement in
the grievance that he reports making to Ojelade at the June exam was that he sometimes
sleeps on the cell floor "to accommodate cell favors."
On appeal, Jones offers two arguments for why a jury should decide whether he
notified Ojelade at the June exam of his previous falls, but both are unavailing. First, in
his view, the district court improperly weighed the contents of his grievance (which
states that falls occurred before his June exam) against his deposition testimony that his
falls occurred only after that exam. Because this case was decided at summary
judgment, we view facts properly before the court in the light most favorable to Jones.
See Petties v. Carter, 836 F.3d 722, IT? (7th Cir. 2016) (en banc). But the grievance does
not create a fact dispute regarding notice to Ojelade about falls. It is neither sworn nor a
declaration that "set[s] out facts" of whether or when Jones told Ojelade that he had
fallen from his bunk. See Fed. R. Civ. P. 56(c)(4); see also Steffek v. Client Servs., Inc., 948
F.3d 761, 769 (7th Cir. 2020); Castro v. DeVry Univ., Inc., 786 F.3d 559, 578-79 (7th Cir.
2015). True, in it Jones asserts that he saw Ojelade after he had fallen from his bunk. But
he does not assert in the grievance that he reported falls to Ojelade; he told Ojelade only
that he sleeps on the cell floor to accommodate others. Thus, a jury could not reasonably
infer from the record that at the June exam Jones notified Ojelade about falls. For the
only record evidence is Ojelade's declaration that during this exam Jones complained
only of back and knee pain, and Jones's testimony that his falls occurred months after
his June exam. Consequently, no trial on the issue of notice is warranted.
Second, Jones contends that the district court overlooked his argument that his
deposition testimony was the result of his confusion about the dates of his falls. This
argument is also fatally flawed. He first made it only after he appealed, when he asked
the district court for leave to proceed in forma pauperis. This was too late, because
Ojelade cited Jones's deposition testimony in his motion for summary judgment, and in
response Jones did not contend that he had been confused. So he waived the argument.
See Duncan Place Owners Ass'n v. Danze, Inc., 927 F.3d 970, 974-75 (7th Cir. 2019).
Moreover, waiver to the side, Jones did not swear in an affidavit that he had been
confused. So the district court could not have credited the argument under the rule that
limits a party's ability to contradict his own deposition testimony. See James v. Hale,
959 F.3d 307, 315-17 (7th Cir. 2020).
We have considered Jones's other arguments, and none has merit.
AFFIRMED

l:17-cv-01248-JBM # 113

Page 1 of 10

E-FILED

Wednesday, 20 March, 2019 10:09:19 AM
Clerk, U.S. District Court, ILCD
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF ILLINOIS
GREGORY DAVID JONES,

)
)
)
)
)
)
)
)

Plaintiff,
v.
DR. ANDREW TILDEN, et al.,
Defendants.

No.: 17-cv-1248-JBM

ORDER
Plaintiff, proceeding pro se, pursues a § 1983 action for deliberate indifference to his
serious medical needs at the Pontiac Correctional Center (“Pontiac”). Plaintiff alleged that
Defendant Dr. Tilden did not respond to his requests for treatment and refused to refer him to an
outside orthopedist or neurologist. Plaintiff alleged that Defendant Physician’s Assistant Riliwan
Ojelade refused to give him a requested low bunk permit, and that Plaintiff fell on several
occasions while trying to access the top bunk. Defendants have filed a motion for summary
judgment [ECF 80] to which Plaintiff has responded [ECF 97], and Defendants have replied.
For the reasons identified herein, Defendants’ motion for summary judgment is hereby
GRANTED.
MATERIAL FACTS
Plaintiff had testified at his deposition that he had suffered a prior back injury while at the
Menard Correctional Center. The injury, however, had largely resolved by the time he was
transferred to Pontiac. On March 28, 2016, while at Pontiac, Plaintiff was seen by Defendant
Ojelade. Plaintiff presented at that time with complaints of bilateral shoulder pain, but not back
pain. At the time of the exam, Plaintiff was noted to have had full range of motion of the
shoulders with no joint deformity. Defendant Ojelade has provided an affidavit in which he

1

l:17-cv-01248-JBM # 113

Page 2 of 10

discloses that Plaintiff was a weightlifiter and at-risk for shoulder problems as inmates with large
muscle mass can sustain injury when they are handcuffed behind their backs. Defendant Ojelade
prescribed a three-month course of Naproxen (“Naproxen”).
On June 20, 2016, Plaintiff spoke with a nurse, requesting a renewal of the Naprosyn. It
appears that the nurse scheduled Plaintiff for sick call, as on June 22, 2016, he was seen for the
second time by Defendant Ojelade. On that date, Plaintiff complained of bilateral knee pain and
lower back pain. Plaintiff informed Defendant that the Naprosyn was not effective, requesting a
different pain medication. Defendant prescribed Motrin 800 mg twice daily for two months to be
followed with Motrin 600 mg twice daily for one month. The reduction in dosage was ordered,
so as to minimize the likelihood of side effects from the medication. Defendant noted that the
medication profile substantiates that a nurse gave Plaintiff a blister pack of 60 doses of Motrin
that same day.
The records document, and Defendant Ojelade attests in his affidavit, that on June 22,
2016, he conducted a physical exam of Plaintiff. He noted that there was no redness, swelling or
joint deformity of Plaintiff s knees. An examination of the back revealed that the spine was
aligned with no limitations in range of motion and no evidence of atrophy or muscular weakness.
Plaintiff disputes this, claiming that Defendant “lied” when he claimed to have undertaken an
examination.
Plaintiff claims that Defendant told him that as he aged, his back pain would likely get
worse. In response, Plaintiff requested a low bunk permit which Defendant Ojelade allegedly
refused to provide. There is nothing in the medical record which documents that Plaintiff made
this request. Defendant attests that if Plaintiff had asked for a low bunk permit, he would have
recorded it. It is Defendant’s opinion that, even if Plaintiff had asked, he did not need a low

2

l:17-cv-01248-JBM # 113

Page 3 of 10

bunk permit at that time. Defendant believed that the prescribed medication would adequately
address Plaintiffs symptoms and, as he was a muscular individual, it was unlikely that he would
have difficulty getting in and out of a top bunk. It is undisputed that the June 22, 2016 exam was
the last time Plaintiff was seen by Defendant Ojelade.
Plaintiff pled in his complaint, and testified at his deposition, that he fell on or about
September 15, 2016 and December 13, 216 while attempting to climb to the top bunk, dates
subsequent to those in which he had been seen by Defendant Ojelade. Plaintiff, however,
attached a June 22, 2016 grievance to his complaint in which he claimed that he had fallen off
the top bunk three times prior to seeing Defendant. Plaintiff reiterates this in his response to
summary judgment, asserting that Defendant knew Plaintiff “was injured falling in his attempt to
climb on to bunk ” and “took no notes” when given this information. [ECF 97 p. 2].
Contrary to his grievance, Plaintiff testified at his deposition that the falls occurred in
September and December 2016, months after his appointments with Defendant Ojelade. As a
result, Defendant Ojelade would not have been aware of the falls and otherwise no basis to
believe that on June 22, 2016, Plaintiff was at risk of falling when climbing to the top bunk.
Plaintiff offers an additional, extraneous argument to support that Defendant Ojelade should
have given him a low bunk permit. This is that, when he was seen by Defendant Tilden on
February 2, 2017, this “real physician” recognized the need for a low bunk permit.
As to Defendant Tilden, Plaintiff asserts that he submitted sick call requests on August
14, 2016, August 17, 2016, September 15, 2016 and December 13, 2016, requesting a bottom
bunk permit and received no response. Plaintiff has provided an August 14, 2016 medical
request slip complaining that Defendant Ojelade refused to give him a bottom bunk permit even
though he had twice fallen from the top bunk and a December 13, 2016 medical request slip,

3

l:17-cv-01248-JBM # 113

Page 4 of 10

asking for a bottom bunk permit. The medical request slips each has the notation “1 copy” on its
face, in what appears to be Plaintiffs handwriting. Neither has any institutional markings to
corroborate that the slip was received by, or reviewed at, the facility. [ECF 1 p. 15, 17].
On January 26, 2017, a correctional officer ordered Plaintiff to move to a top bunk as he
was getting a new cellmate who had a low punk permit. When Plaintiff replied that he was
unable to comply due to his back, he was issued a citation for refusing housing and disobeying a
direct order. Plaintiff was found guilty at an Adjustment Committee hearing and sentenced to
seven days in segregation. [ECF 1 p. 21],
On February 2, 2017, Plaintiff was seen by Dr. Tilden for the first, and apparently only
time. Plaintiff claims that, while Dr. Tilden issued him a low bunk permit, he did not adequately
treat his back pain. Plaintiff complains that Defendant Tilden recommended that Plaintiff apply
a hot compress to his back but did not provide him with a compress. Plaintiff also claims that he
should have been given a brace for his knee and referred to an outside specialist.
Dr. Tilden has submitted a sworn affidavit addressing Plaintiffs claims that he made four
unsuccessful attempts to see him. Defendant explains that inmates may not request to be seen by
a specific provider. Instead, they are to contact the nurse or medical technician who makes
rounds in their housing unit. That individual makes the determination to either treat the issue or
refer the inmate to sick call to be managed by the physician, nurse practitioner, or physician’s
assistant. Inmates may also submit a medical request slip which is forwarded to the medical
records office so an appointment can be scheduled. Defendant asserts that he was never involved
in scheduling appointments, and only saw patients when appointments were placed on his
calendar.

4

l:17-cv-01248-JBM # 113

Page 5 of 10

Plaintiff testified that Defendant was aware he wanted to be seen as, on at least one
occasion, he called out to Defendant as Defendant Tilden walked through the facility. Defendant
attests that, as a practice, he does not stop to informally discuss or treat inmates’ complaints
while walking about the facility. If he were to respond as Plaintiff suggests, others would likely
overhear confidential health information, he would not be able to accurately record complaints
outside the clinical setting, and there would be a danger of confusing the many different inmates’
varied conditions and medical histories.
Defendant asserts that he only examined Plaintiff on February 2, 2017, and that there was
no record of Plaintiff complaining of related problems between this and his June 22, 2016 visit
with Defendant Ojelade. At the time of the February 2017 exam, Plaintiff complained of low
back pain, but his condition was not otherwise remarkable. Defendant conducted a physical
exam which was positive for a mild to moderate decrease in range of motion of the back without
tenderness, and without evidence of neural-vascular deficiencies. He observed Plaintiff to have a
normal gait. Defendant prescribed Naproxen, a low bunk permit for two years, a slow walk
permit for two years and the use of a security belt, rather than shackles, for a two-month period.
Defendant attests that he saw nothing warranting referral to an orthopedist or neurologist.
He explains that he ordered the low bunk permit based only on Plaintiffs subjective complaints
of back pain. It was his opinion that, while Plaintiff might experience some discomfort climbing
in and out of the top bunk, he would not face a substantial risk of serious harm in so doing.
In his response, Plaintiff appears to assert an additional claim related to his shoulder.
This, however, was not pled in the complaint and is not considered here. See Shanahan v. City of
Chicago, 82 F.3d 776, 781 (7th Cir. 1996) (“A plaintiff may not amend his complaint through
arguments in his brief in opposition to a motion for summary judgment.”)

5

l:17-cv-01248-JBM # 113

Page 6 of 10

SUMMARY JUDGMENT STANDARD
Summary judgment is appropriate “if the movant shows that there is no genuine dispute
as to any material fact and the movant if entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a); see also Celotex Corp. v. Catrett, 477 U.S. 317, 322-23 (1986). The moving party has the
burden of providing proper documentary evidence to show the absence of a genuine issue of
material fact. Celotex Corp., All U.S. at 323-24. Once a properly supported motion for
summary judgment is filed, the burden shifts to the non-moving party to demonstrate with
specific evidence that a triable issue of fact remains for trial. Gracia v. Volvo Europa Truck,
N. V., 112 F.3d 291, 294 (7th Cir. 1997). The party opposing summary judgment “must present
definite, competent evidence in rebuttal.” Butts v. Aurora Health Care, Inc., 387 F.3d 921, 924
(7th Cir. 2004).
Accordingly, the non-movant cannot rest on the pleadings alone, but must designate
specific facts in affidavits, depositions, answers to interrogatories or admissions that establish
that there is a genuine triable issue; he “must do more than simply show that there is some
metaphysical doubt as to the material facts.” Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574, 586 (1986). Finally, a scintilla of evidence in support of the non-movant’s
position is not sufficient to oppose successfully a summary judgment motion; “there must be
evidence on which the jury could reasonably find for the [non-movant].” Anderson v. Liberty
Lobby, Inc., All U.S. 242, 252 (1986).
DELIBERATE INDIFFERENCE STANDARD
The Eighth Amendment prohibits punishments that are incompatible with “evolving
standards of decency that mark the progress of a maturing society.” Trop v. Dulles, 356 U.S. 86,
101 (1958). “The Eighth Amendment safeguards the prisoner against a lack of medical care that

6

l:17-cv-01248-JBM # 113

Page 7 of 10

may result in pain and suffering which no one suggests would serve any penological purpose.”
Arnett v. Webster, 658 F.3d 742, 750 (7th Cir. 201 l)(intemal quotations and footnote omitted).
“Prison officials violate the Constitution if they are deliberately indifferent to prisoners’ serious
medical needs.” Id. (citing Estelle v. Gamble, 429 U.S. 97, 104 (1976)); Rodriguez v. Plymouth
Ambulance Serv., 577 F.3d 816, 828 (7th Cir. 2009)(“[d]eliberate indifference to serous medical
needs of a prisoner constitutes the unnecessary and wanton infliction of pain forbidden by the
Constitution.”).
The deliberate indifference standard requires an inmate to clear a high threshold in order
to maintain a claim for cruel and unusual punishment under the Eighth Amendment. Dunigan ex
rel. Nyman v. Winnebago County, 165 F.3d 587, 590 (7th Cir. 1999). “In order to prevail on a
deliberate indifference claim, a plaintiff must show (1) that his condition was ‘objectively,
sufficiently serious’ and (2) that the ‘prison officials acted with a sufficiently culpable state of
mind.” Lee v. Young, 533 F.3d 505, 509 (7th Cir. 2008)(quoting Greeno v. Daley, 414 F.3d 645,
652 (7th Cir. 2005)); Duckworth v. Ahmad, 532 F.3d 675, 679 (7th Cir. 2008)(same). “A
medical condition is serious if it ‘has been diagnosed by a physician as mandating treatment or
one that is so obvious that even a lay person would perceive the need for a doctor’s attention.’”
Lee, 533 F.3d at 509 (quoting Greeno, 414 F.3d at 653). “With respect to the culpable state of
mind, negligence or even gross negligence is not enough; the conduct must be reckless in the
criminal sense.” Ld.\ Farmer v. Brennan, 511 U.S. 825, 836-37 (1994)(“We hold . .. that a prison
official cannot be found liable under the Eighth Amendment for denying an inmate humane
conditions of confinement unless the official knows of and disregards an excessive risk to inmate
health or safety; the official must both be aware of facts from which the inference could be
drawn that a substantial risk of harm exists, and he must also draw the inference.”)

7

l:17-cv-01248-JBM # 113

Page 8 of 10

ANALYSIS
Defendant Ojelade’s only interaction with Plaintiff relating to his back claim was on June
22, 2016. While Plaintiff claims that Defendant did not perform a physical examination, the
medical record documents that Defendant undertook and recorded an examination of Plaintiff s
spine and knees. This is sufficient as competent, contemporaneous evidence that Defendant
Ojelade conducted a physical examination on June 22, 2016.
There is the additional dispute as to whether, on June 22, 2016, Plaintiff told Defendant
Ojelade that he had already fallen three times and that the falls occurred while climbing up or
down from the top bunk. As noted, this claim is inconsistent with Plaintiffs deposition
testimony where, under oath, he claimed that he had fallen in September and December 2016,
months after his last treatment by Defendant Ojelade. See Correa v. Illinois Dept, of Corr., 05 C
3791, 2007 WL 3052947, at *1 (N.D. Ill. Oct. 17, 2007) (“allegations from the plaintiffs
complaint are not admissible evidence to defeat summary judgment.”) See also, Nisenbaum v.
Milwaukee County, 333 F.3d 804, 810 (7th Cir. 2003) (“Allegations in a complaint are not
evidence.”) Here, the Court finds that Plaintiff has failed to substantiate as a material issue of
fact that, on June 22, 2016, Defendant Ojelade was aware that Plaintiff had suffered three prior
falls while trying to access the top bunk.
Plaintiff asserts, further, that Defendant’s statement that his back condition would get
worse as he got older, stands as uncontroverted evidence that he should have been given a low
bunk permit on June 22, 2016. Plaintiff argues that Defendant Tilden’s issuance of a low bunk
permit on February 2, 2017, establishes that Defendant Ojelade was deliberately indifferent for
not acting earlier. Defendant Tilden, however, has indicated that he did not necessarily believe
that Plaintiff needed a low bunk permit in February 2017, but issued it due to his subjective

8

l:17-cv-01248-JBM # 113

Page 9 of 10

complaints. Plaintiff offers nothing to support that Defendant Ojelade’s failure to act some 7 Vi
months prior evidenced deliberate indifference. This, particularly as Defendant Ojelade has
submitted an uncontroverted affidavit attesting that Plaintiff did not require a low bunk permit in
June 2016.
As to Defendant Tilden, Plaintiff fails to establish that Defendant was aware that he had
submitted four sick call requests and received no response. Section 1983 liability is predicated
on fault, so to be liable, a defendant must be “personally responsible for the deprivation of a
constitutional right.” Sanville v. McCaughtry, 266 F.3d 724, 740 (7th Cir.2001) (quoting Chavez
v. Ill State Police, 251 F.3d 612, 651 (7th Cir.2001)). “A defendant will be deemed to have
sufficient personal responsibility if he directed the conduct causing the constitutional violation,
or if it occurred with his knowledge or consent.” Ames v. Randle, 933 F.Supp.2d 1028, 1037-38
(N.D.I11.2013) (quoting Sanville, 266 F.3d at 740). See also, Burks v. Raemisch, 555 F.3d 592,
595 (7th Cir. 2009), “[pjublic officials do not have a free-floating obligation to put things to
rights, disregarding rules (such as time limits) along the way. Bureaucracies divide tasks; no
prisoner is entitled to insist that one employee do another's job....”
Here, Plaintiff fails to identify as a material issue of fact that he presented with symptoms
on June 22, 2016, which should have put Defendant Ojelade on notice that the failure to provide
a low bunk permit would result in harm to Plaintiff. He also fails to establish that, prior to
February 2, 2017, Defendant Tilden was aware that he had requested medical treatment. Finally,
Plaintiff fails to identify as a material issue of fact that the care rendered by Defendant Tilden on
February 2, 2017, exhibited deliberate indifference. As result, Defendants’ motion for summary
judgment is GRANTED.

9

l:17-cv-01248-JBM #113

Page 10 of 10

IT IS THEREFORE ORDERED:
1)

Defendants’ motion for summary judgment of the Wexford Defendants [ECF 80]

is GRANTED. The Clerk of the Court is directed to enter judgment in favor of Defendants and
against Plaintiff. This case is terminated, with the parties to bear their own costs. All deadlines,
internal settings and pending motions are vacated.
2)

If Plaintiff wishes to appeal this judgment, he must file a notice of appeal with

this Court within 30 days of the entry of judgment. Fed. R. App. P. 4(a)(4).
3)

If Plaintiff wishes to proceed in forma pauperis on appeal, his motion for leave to

appeal in forma pauperis must identify the issues Plaintiff will present on appeal to assist the
Court in determining whether the appeal is taken in good faith. See Fed. R. App. P. 24(a)(1)(c);
see also Celske v. Edwards, 164 F.3d 396, 398 (7th Cir. 1999) (an appellant should be given an
opportunity to submit a statement of his grounds for appealing so that the district judge “can
make a responsible assessment of the issue of good faith.”); Walker v. O'Brien, 216 F.3d 626,
632 (7th Cir. 2000) (providing that a good faith appeal is an appeal that “a reasonable person
could suppose .. . has some merit” from a legal perspective). If Plaintiff does choose to appeal,
he will be liable for the $505.00 appellate filing fee regardless of the outcome of the appeal.

ENTERED: 3/20/2019
______s/Joe Billy McDade_______
JOE BILLY McDADE
UNITED STATES DISTRICT JUDGE

10

Case: 19-1829

Filed: 12/02/2020

Document: 70

Pages: 1

Untteh jStatts Oluurt nf i\ppeals
For the Seventh Circuit
Chicago, Illinois 60604
December 2, 2020
Before
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
AMY J. ST. EVE, Circuit Judge

No. 19-1829
GREGORY JONES,
Plaintiff-Appellant,
v.
ANDREW TILDEN and RILIWAN
OJELADE,
Defendan ts-Appellees.

Appeal from the United States District
Court for the Central District of Illinois.
No. 17-cv-1248
Joe Billy McDade,

Judge.

ORDER
On consideration of the petition for rehearing and for rehearing en banc filed by
Plaintiff-Appellant on November 13, 2020, no judge in active service has requested a vote
on the petition for rehearing en banc, and the judges on the original panel have voted to
deny rehearing.
Accordingly, the petition for rehearing is DENIED.

Additional material
/

from this filing is
available in the
Clerk's Office.

